No. 20-276

 

 

IN THE

Supreme Court of the United States

CHRISTOPHER M. GIBSON,

Petitioner,
Vv.
SECURITIES AND EXCHANGE COMMISSION, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

BRIEF FOR AMICUS CURIAE
AMERICANS FOR PROSPERITY FOUNDATION
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,685 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 2, 2020.

 

Colin Casey\Hogan
Wilson-Epes Printing Co., Inc.
